INS-0-98-03




   INSPECTION
                                          The Fiscal Year 1996
     REPORT                      Performance Based Incentive Program
                                at the Savannah River Operations Office




                                              May 1998




   U.S. DEPARTMENT OF ENERGY
  OFFICE OF INSPECTOR GENERAL
      OFFICE OF INSPECTIONS
INSPECTION OF THE FISCAL YEAR 1996
PERFORMANCE BASED INCENTIVE PROGRAM
AT THE SAVANNAH RIVER OPERATIONS OFFICE

TABLE OF
CONTENTS

                  Overview

                  Introduction and Objective ....................................................1

                  Observations and Conclusions .............................................3

                  Findings and Recommendations.......................................4

                  Savannah River PBI Program Experienced Similar
                  Problems ...............................................................................4

                  Questionable PBI Fee Payments ..........................................7

                  1. Two PBI Fees Paid For Achieving Minimal
                     Cost Savings ...................................................................7

                      Recommendation 1 and Management Comment...........12

                  Inspector Comment.............................................................12

                  2. PBI Fee Paid For Work Which Did Not Meet PBI’s
                     Stated Requirement.......................................................13

                  3. New Sources of Funding Were Double-Counted
                     Towards Two PBIs.........................................................16

                      Recommendation 2 and Management Comment ..........17

                  Inspector Comment.............................................................17

                  Appendix

                  Scope..................................................................................18

                  Methodology .......................................................................18
Overview

INTRODUCTION AND   In June 1993, the then Secretary of Energy established a
OBJECTIVE          Contract Reform Team to review the Department of Energy’s
                   (DOE) contracting practices and to make recommendations to
                   improve them. The need for contract reform was driven by a
                   recognition that DOE did not have adequate control of its
                   contractors, that contractors were not sufficiently accountable to
                   DOE, and that there was an absence of well-defined
                   performance measures and criteria for DOE contractors.

                   In February 1994, DOE’s Contract Reform Team issued its
                   report entitled Making Contracting Work Better and Cost Less.
                   A key recommendation of the Contract Reform Team’s report
                   was the establishment of a new form of Management and
                   Operating (M&O) contract— the Performance Based
                   Management Contract. The fundamental component of this new
                   approach to contracting is the use of performance based
                   contracting concepts, which emphasizes more definitive
                   statements of work, specific performance objectives and
                   measures, and linkage to appropriate performance incentives.
                   Simply put, the purpose of performance based contracts is to
                   clearly state what the Department expects from its contractors,
                   establish financial incentives that motivate the contractors to
                   perform, and provide ways for the Department to measure their
                   performance.

                   The thrust of the Contract Reform Team’s efforts was consistent
                   with the August 1993 Government Performance Results Act
                   which focused on improving the management of Federal
                   programs and activities by establishing program goals and
                   measuring the achievement of these goals.

                   The Office of Inspector General has previously issued three
                   reports dealing with implementation of performance based
                   contracting within the Department of Energy. Our reports
                   documented deficiencies in the Department’s development and
                   administration of performance based contracts and the
                   associated incentives used to improve contractor performance.
                   In report DOE/IG-0401, “Inspection of the Performance Based
                   Incentive Program at the Richland Operations Office,” we cited
                   numerous Performance Based Incentive (PBI) Program
                   weaknesses in the implementation of the Fiscal Year 1995 PBI
                   Program at Richland. As a result of our inspection, Richland’s


Page 1                 The Fiscal Year 1996 Performance Based Incentive Program
                       at the Savannah River Operations Office
         contractor agreed to reimburse DOE $2.5 million in performance
         fees and penalties.

         In report DOE/IG-0411, “Audit of the Contractor Incentive
         Programs at the Rocky Flats Environmental Technology Site,”
         we found that the Rocky Flats Field Office rewarded the
         contractor for cost reduction proposals that were not innovative
         and that these proposals generally did not result in savings
         being returned to the Department. We also found that the
         performance measures at Rocky Flats rewarded performance
         expectations that were not clearly defined and were not always
         structured so as to encourage and reward superior performance
         by the contractor.

         In report DOE/IG-0412, “Audit of the Contractor Incentive
         Program at the Nevada Operations Office,” we found that the
         performance measures included milestones that were
         established after the work had actually been completed, and that
         criteria established to meet the performance measures were
         vague and non-specific.

         The Department took action in response to these reports.
         Shortly after taking office in March 1997, the Secretary received
         the Inspector General’s “Report on Inspection of the
         Performance Based Incentive Program at the Richland
         Operations Office.” Immediately thereafter, the Secretary
         directed the initiation of a comprehensive review of performance
         based incentives to determine the scope and magnitude of
         implementation problems across the Department. This review
         entitled “ASSESSMENT OF THE USE OF PERFORMANCE-
         BASED INCENTIVES IN PERFORMANCE-BASED
         MANAGEMENT AND MANAGEMENT AND INTEGRATION
         CONTRACTS,” completed in October 1997, identified systemic
         problems in the implementation of performance based incentives
         and resulted in a corrective action plan which included the
         following key elements:

               • The issuance of additional direction to DOE field
                 organizations to strengthen the organizational
                 structure, processes, and criteria for the administration
                 of performance based incentives;




Page 2       The Fiscal Year 1996 Performance Based Incentive Program
             at the Savannah River Operations Office
                        • The issuance of new guidance and instructional
                          information on the use of performance based
                          incentives;

                        • The establishment of support mechanisms to assist
                          contracting activities in the development and use of
                          performance based incentives; and

                        • The establishment of an aggressive schedule for the
                          necessary corrective actions as well as feedback
                          mechanisms to ensure that the actions are effective.

                  Also in March 1997, we initiated a review of the Fiscal Year 1996
                  Performance Based Incentive Program at the Savannah River
                  Operations Office (Savannah River). This incentive program
                  provided its M&O contractor, Westinghouse Savannah River
                  Company (Westinghouse), with an opportunity to earn $26.28
                  million in incentive fees. The objective of our review was to
                  determine the adequacy of the Fiscal Year 1996 Performance
                  Based Incentive Program at Savannah River and to determine if
                  the performance fees awarded were appropriate.


OBSERVATIONS      Our inspection determined that Savannah River has experienced
AND CONCLUSIONS   problems with the establishment and implementation of
                  individual performance based incentives similar to the problems
                  we identified in our earlier reviews at other DOE sites. We also
                  found that certain PBI fee payments appeared questionable. In
                  one instance, involving the double counting of new funding
                  towards achieving two PBIs, we recommended that the PBIs be
                  reviewed for possible recovery of improperly paid fee.




Page 3                The Fiscal Year 1996 Performance Based Incentive Program
                      at the Savannah River Operations Office
Savannah River PBI Program Experienced Similar Problems

Savannah River                The Fiscal Year 1996 Performance Based Incentive (PBI)
Experienced Problems          Program at the Savannah River Operations Office experienced
Similar To Those Identified   problems similar to those identified in the three previous Office
In Three Previous Office Of   of Inspector General reviews. For example, the Fiscal Year
Inspector General Reviews     1996 PBI Program at Savannah River was established without
                              any specific written policies or procedures for the management
                              and administration of an incentive fee program, and the
                              Performance Evaluation Plan which contained the Fiscal Year
                              1996 performance based incentives was not approved until
                              February 14, 1996, four and one-half months into the
                              performance period. Savannah River officials attributed this
                              delay to the learning curve associated with implementing the
                              new incentive fee program. Our review also revealed that the
                              Savannah River PBI program experienced some weaknesses in
                              the management and administration of individual PBIs similar to
                              those found by the Office of Inspector General at other sites.
                              The following weaknesses did not occur in every instance, but
                              were detected during the review:

                                        • PBI performance objectives were poorly
                                          defined.

                                        • PBI performance objectives were easy to
                                          achieve and did not “stretch” the contractor.

                                        • The expected financial and operational benefits
                                          from individual projects selected under the PBI
                                          program were undefined.

                                        • PBI fees appeared to be inappropriate when
                                          compared with the direct cost of performing the
                                          work.

                                        • The rationale used to determine specific PBI
                                          fee amounts was unclear.

                                        • PBI work was accomplished prior to the PBIs
                                          being formally established and approved.

                                        • The rationale for PBI modifications was not fully
                                          documented.




Page 4                                                                        Details of Finding
                              • Documentation to support the validation and
                                acceptance of PBI work was incomplete.

The Department Has   Recently, the Department of Energy has made progress in
Made Progress        the development and issuance of policy and procedural
                     guidance on the management and administration of incentive
                     fee programs. Examples of this guidance include:

                              • The "Environmental Management Guidelines
                                for Fee and Incentive Development" was
                                issued by the Assistant Secretary for
                                Environmental Management on July 11, 1997.
                                These guidelines address the fee structure, the
                                use of stretch goals, the need for clear
                                definition of work and acceptance criteria, and
                                documentation of changed performance criteria
                                and Department verification of the PBI work
                                performed by the contractor.

                              • Acquisition Letter 97-06 issued by the
                                Department on August 28, 1997, stated that
                                Heads of Contracting Activities shall establish a
                                process internal to their organization to assess
                                all performance objectives and fees. This
                                process is to ensure that performance
                                objectives are well-defined and rational, and
                                that mechanisms exist as part of contract
                                administration for validation of contractor
                                performance against the stated objectives.

                              • The Savannah River Operations Office
                                "Performance Based Incentive (PBI) Policy and
                                Procedures" was developed as part of the
                                Fiscal Year 1998, "Performance Evaluation
                                Plan" for the Westinghouse Savannah River
                                Company contract. The policy and procedures
                                address the development of performance based
                                incentives, the validation and payment of
                                completed performance based incentives, and
                                modifications to performance based incentives.




Page 5                                                             Details of Finding
                   • Acquisition Letter 97-08 issued by the
                     Department on December 8, 1997, provided
                     guidance on the structuring of performance
                     based incentive arrangements in Performance
                     Based Management Contracts, and established
                     general requirements for formal administrative
                     processes and procedures relating to
                     performance based incentives.

         The Department has recognized, however, that Department-
         wide and local implementing guidance on the development
         and administration of performance objectives and related
         incentives was limited and, generally, did not address certain
         issues such as properly allocating fee amounts to specific
         incentives. In the Department's October 1997 Report to the
         Secretary on the "ASSESSMENT OF THE USE OF
         PERFORMANCE-BASED INCENTIVES IN PERFORMANCE-
         BASED MANAGEMENT AND MANAGEMENT AND
         INTEGRATION CONTRACTS," the Office of Procurement
         and Assistance Management recommended that the
         Department strengthen its framework of directives and
         instructional information on the use of performance based
         incentives. We believe that this action, in conjunction with
         the existing policy and procedural guidance on incentive fee
         programs, should address the types of problems discussed
         above, and if fully implemented at Savannah River, should
         prevent these problems from reoccurring.




Page 6                                                  Details of Finding
Questionable PBI Fee Payments

Three Instances Of          Our inspection disclosed three instances of questionable fee
Questionable Fee            payments. These three instances were: 1) $2,145,000 of fee
Payments                    paid for achieving minimal cost savings; 2) $380,000 paid for
                            work which did not meet a PBI’s stated requirement; and 3)
                            double counting $3,280,000 in new sources of funding
                            towards achieving two PBIs.

1. Two PBI Fees Paid For    PBI 96-6, entitled “Meet all Regulatory Commitments/
   Achieving Minimal Cost   Expectations,” had the objective of meeting all Fiscal Year 1996
   Savings                  regulatory commitments for the local Environmental Restoration
                            (ER) program, but at less cost when compared to an approved
                            December 1993 Baseline for performing this work. This PBI
                            provided for two incentive fee levels: a “Superior” fee of
                            $1,445,000; or an “Excellent” fee of $500,000. The “Superior
                            Performance Standard” for PBI 96-6, for a fee of $1,445,000,
                            required that Westinghouse:

                                 “Meet all ER [Environmental Restoration] commitments/
                                 expectations including those listed in FFA Appendix H and
                                 D, revised RCRA operating permit, settlement agreements,
                                 administrative orders, consent decrees, NODs [Notice of
                                 Deficiency], NOVs [Notice of Violation], or notices of
                                 regulatory direction and closure plans at a 25 percent cost
                                 savings compared to the approved December 1993
                                 Baseline.” [Emphasis Added.]

                            The “Excellent Performance Standard,” for a fee of $500,000,
                            had the same requirements as the “Superior Performance
                            Standard,” except that the cost savings requirement was
                            reduced to 20 percent of the approved December 1993 Baseline.

                            Our inspection found, however, that Savannah River awarded
                            Westinghouse the “Superior” fee of $1,445,000 based upon
                            Westinghouse achieving only a 10 percent cost savings
                            compared to the approved December 1993 Baseline. This was
                            well short of the 25 percent cost savings required under the
                            PBI’s “Superior Performance Standard.” Specifically, data
                            provided by Westinghouse showed that the December 1993
                            Baseline cost of work performed in Fiscal Year 1996 was $139.9
                            million. Westinghouse was paid the “Superior” fee of
                            $1,445,000 after achieving a cost savings of $14 million. This
                            $14 million cost savings represented a savings of only 10
                            percent of the approved December 1993 Baseline costs.

Page 7                                                                     Details of Finding
         Payment of the “Superior” fee occurred because the cost
         savings target in the “Performance Criteria” was not consistent
         with the cost savings requirements in the PBI’s “Performance
         Standards.” The “Performance Criteria” stated that:

              “This goal requires WSRC [Westinghouse Savannah River
              Company] to achieve a 25 percent productivity
              improvement in the unit cost of performing work scope by
              September 30, 1996. The improvement is estimated to be
              a total of $26.2 million. The actuals for FY95 are $12.2M
              and the target for FY96 is $14.0M. Cost savings are
              calculated by comparing the unit cost of work scope
              performed in the FY96 AOP [Annual Operational Plan] to
              the December 1993 baseline or equivalent estimates. If
              work scope is moved out of the AOP (via changes), the cost
              savings of 25 percent will be measured against the new
              cost of remaining scope.”

         In an effort to determine what performance level was actually
         intended, we discussed this issue with Savannah River officials.
         In interviews with the Contracting Officer and the Assistant
         Manager for Environmental Quality, both officials told us that in
         order for Westinghouse to have earned either a “Superior “ fee
         or an “Excellent” fee for this PBI, Westinghouse would had to
         have met the appropriate “Performance Standard” for each fee
         level. That is, a “Superior” fee required a cost savings of 25
         percent, and an “Excellent” fee required a cost savings of 20
         percent.

         Our analysis showed that Westinghouse’s claimed savings of
         $14 million, which was achieved in July 1996, represented a
         savings of only 10 percent of the approved December 1993
         Baseline costs. Thus, the claimed savings failed to meet the
         “Performance Standards” of PBI 96-6. Nonetheless, Savannah
         River awarded Westinghouse a “Superior” performance fee of
         $1,445,000.

         Having achieved the $14 million savings “target” in July 1996,
         Westinghouse continued to achieve additional savings through
         the remainder of Fiscal Year 1996. By the end of Fiscal Year
         1996, Westinghouse had incurred $114.3 million in costs on
         environmental work originally estimated to cost $139.9 million in


Page 8                                                   Details of Finding
         the approved December 1993 Baseline. This resulted in a total
         claimed cost savings of $25.6 million for Fiscal Year 1996.
         Although Westinghouse’s $25.6 million in total savings was
         greater than the $14 million “target” used as the basis for
         awarding Westinghouse a “Superior” fee, it still only represented
         a savings of 18.3 percent of the December 1993 Baseline costs.
         This 18.3 percent savings failed to meet either the “Superior
         Performance Standard” of 25 percent, or the “Excellent
         Performance Standard” of 20 percent for PBI 96-6.

         As part of our Inspection, we also evaluated the contractor’s
         performance under PBI 96-18, entitled, “Improve Environmental
         Restoration Productivity.” The specific objective of this incentive
         was to, “Further improve productivity above the superior rating of
         PBI Area 6 [PBI 96-6] and use those savings to execute
         additional scope in FY96.” In essence, PBI 96-18 was intended
         to achieve savings which supplemented those claimed under
         PBI 96-6. The new PBI was funded at a maximum fee of
         $700,000, using “recycled” incentive fee dollars from other PBIs
         that had not been earned by Westinghouse earlier in the fiscal
         year. The fee schedule for PBI 96-18 was complex. In
         summary, Westinghouse could earn a maximum additional
         incentive of $700,000 if it achieved total cost savings of $21
         million, or $7 million more than the $14 million “target” used as
         the basis for awarding a “Superior” fee for PBI 96-6.

         The $14 million savings “target” in PBI 96-6’s “Performance
         Criteria” was referenced by PBI 96-18 as the starting point for
         exceeding the superior performance rating of PBI 96-6. Using
         this starting point, the total cost savings requirement for PBI 96-
         18 was set at $21 million in order to earn maximum fee of
         $700,000. Westinghouse claimed that the $21 million cost
         savings requirement for PBI 96-18 was exceeded in September
         1996, the last month of the fiscal year. Accordingly, Savannah
         River awarded the contractor the maximum incentive fee of
         $700,000.

         We concluded that the process for developing and executing
         PBI 96-18 was flawed. First, as noted in our analysis of PBI 96-
         6, the use of $14 million in cost savings as the starting point for
         the supplemental incentive was inappropriate. The “Superior
         Performance Standard” required a 25 percent cost savings


Page 9                                                    Details of Finding
                        compared to the approved December 1993 Baseline; this
                        computed to a cost savings of about $34.9 million. If there was
                        to be a supplemental cost savings incentive, this 25 percent cost
                        savings of PBI 96-6’s “Superior Performance Standard” should
                        have been the starting point for measuring additional savings.
                        Second, the justification for an additional PBI for cost savings
                        was questionable. The period of performance for PBI 96-6 was
                        the same as for PBI 96-18, namely, all of Fiscal Year 1996. Both
                        this incentive and PBI 96-18 also had the same basic objective
                        of achieving cost savings. Further, while we disagree with the
                        contention that only $14 million in cost savings satisfied the
                        “Superior Performance Standard” of PBI 96-6, Westinghouse’s
                        data indicated that the contractor achieved this savings level in
                        July 1996. This raises what we believe is a reasonable question
                        – why should it be necessary to further incentivize the
                        contractor’s “Superior” performance record for the period
                        between July and September 1996?

Fiscal Year 1996 Cost   In summary, Westinghouse was rewarded for “Superior”
Savings Summary         performance for achieving Fiscal Year 1996 cost savings of $21
                        million, the first $14 million as part of PBI 96-6, and the
                        remaining $7 million under PBI 96-18. In fact, Westinghouse
                        actually exceeded the $21 million, and claimed $25.6 million in
                        total savings for Fiscal Year 1996. In analyzing the data,
                        however, we found that Westinghouse needed cost savings of
                        more than $34.9 million, or 25 percent of the $139.9 million
                        December 1993 Baseline work performed in Fiscal Year 1996, to
                        have improved productivity above the “Superior Performance
                        Standard” of PBI 96-6. Further, when Westinghouse’s total
                        claimed cost savings of $25.6 million for Fiscal Year 1996 are
                        considered, Westinghouse fell far short of the 25 percent
                        standard for “Superior” performance for PBI 96-6, and even
                        missed the 20 percent standard for “Excellent” performance,
                        which would have required a cost savings of almost $28 million.

                        In a draft of this report, we had concluded that the incentive fees
                        paid for both PBI 96-6 and PBI 96-18 should be recovered. We
                        had based this, in part, on statements by two Savannah River
                        officials, that in order for Westinghouse to have earned either a
                        “Superior “ fee or an “Excellent” fee for PBI 96-6, Westinghouse
                        would have had to have met the appropriate “Performance
                        Standard” for each fee level. And the required cost savings for
                        the “Superior Performance Standard” was stated to be 25
                        percent, not $14 million.
Page 10                                                                  Details of Finding
          In commenting on the draft report, however, the Acting Manager,
          Savannah River wrote that this PBI was very difficult to
          understand; and that it had been the intent and understanding of
          both Savannah River and Westinghouse, based on a two-year
          goal, that if Westinghouse achieved the $14 million “target”
          savings in the performance criteria, then they would have met
          the 25 percent Superior Performance Standard for PBI 96-6. He
          also wrote:

              “The lack of preciseness solely in the PBI language is not a
              valid basis for denial of payment of earned incentive fee
              given the other supporting documentation and the fact that
              the DOE oversight staff and the contractor have validated
              the intent of the parties both verbally and through written
              documentation. Therefore, in view of the above facts, and
              after consultation with my legal staff, we have concluded
              the preponderance of the evidence indicates WSRC
              [Westinghouse] met the intended standards for both PBI’s
              and was entitled to the payment of $2.145M paid under
              these two PBI’s.”

          We concluded there is no basis for recovering PBI fees in
          this case. Despite the earlier statements of two Savannah
          River officials and the inconsistency between the
          “Performance Standards” and “Performance Criteria,” the
          Acting Manager of Savannah River stated that Savannah
          River Staff had conveyed to Westinghouse, both verbally and
          through written documentation, that a “Superior” performance
          fee would be paid for a cost savings of $14 million under PBI
          96-6 and an additional $7 million under PBI 96-18.




Page 11                                                  Details of Finding
Recommendation       We recommend that the Manager, Savannah River Operations
                     Office:

                     Recommendation 1: Ensure that PBI requirements are clearly
                     written, and that “Performance Criteria” are consistent with the
                     requirements in the “Performance Standards.”

Management Comment   The Acting Manager, Savannah River concurred with the
                     recommendation, and stated that: “I concur the language
                     utilized in the PBI itself, as well as the formula for evaluation,
                     was not clearly stated and clarity of PBI requirements is
                     recognized as an area for improvement.”

Inspector Comment    We consider management’s statements regarding
                     Recommendation 1 to be responsive.




Page 12                                                 Recommendation and Comment
2. PBI Fee Paid For Work    PBI 96-11, entitled “Prepare Facilities and Personnel for
   Which Did Not Meet PBI’s Research Reactor Fuel Storage,” required Westinghouse to
   Stated Requirement       “Demonstrate L-Reactor readiness for research reactor fuel
                            storage by maintaining average water chemistry . . . and
                            successfully unloading two casks by 9/1/96 for $380,000.” This
                            date was subsequently modified to September 14, 1996.

                              Westinghouse notified Savannah River on August 30, 1996, that
                              the L-Basin, associated with the L-Reactor, was ready to receive
                              spent fuel. In an August 30, 1996, letter, Westinghouse’s Vice
                              President and Manager of Excess Facilities and Reactor Fuel
                              Storage Program wrote to Savannah River’s Assistant Manager
                              for Defense Programs, and stated that:

                                   “This memorandum is to inform the Department of Energy
                                   (DOE) that L-basin has been declared ready to receive
                                   Domestic and Foreign Research Reactor (DRR/FRR) Spent
                                   Nuclear Fuels (SNF). L-Basin readiness is consistent with
                                   the Excess Facilities and Reactor Fuel Storage Program
                                   Division FY96 Milestone, LRC02. WSRC has completed
                                   both the physical modification of the L-Basin and the
                                   related readiness assessment activities necessary to
                                   support this declaration… .”

                              Although Westinghouse notified Savannah River that L-Basin
                              was ready to receive Domestic and Foreign Research Reactor
                              Spent Nuclear Fuels, the decision was made by DOE to suspend
                              any movement of spent fuel pending resolution of a lawsuit filed
                              by the State of South Carolina to block shipments of Foreign
                              Research Reactor (FRR) Spent Nuclear Fuel to the Savannah
                              River Site. Because of this decision, Savannah River waived the
                              PBI requirement to demonstrate L-Reactor readiness by
                              “successfully unloading two casks." Instead, Savannah River
                              approved payment of the PBI on October 25, 1996, after
                              observing dry-run exercises at the facility. The Savannah River
                              technical reviewer noted on the approval form that “movement of
                              fuel to L-Basin blocked by DOE-HQ due to ongoing lawsuit.
                              WSRC would, in all likelihood, have met the milestone had this
                              restraint not been imposed… .”

                              However, our inspection found documentation which indicated
                              that, contrary to its August 30, 1996, letter, Westinghouse was


Page 13                                                                      Details of Finding
          not ready to receive all shipments of Spent Nuclear Fuel at
          L-Basin.

          Specifically, the Savannah River Award Fee Board Report for
          the six-month period ending March 31, 1997, cited “Delays in L-
          Basin Readiness” as a “Notable Deficiency.” The report’s
          narrative discussed this “Notable Deficiency,” stating that:

               “Although good support for the FRR lawsuit was provided
               by the contractor, the L-Basin was not ready to receive fuel
               as stated in the contractor’s letter of August 30, 1996. In
               fact, fuel was not transferred from RBOF [Receiving Basin
               Off-site Fuels] to L-Reactor, for approximately five weeks
               following successful resolution of the lawsuit. The delays
               were due to incomplete analysis for the Nuclear Safety
               Data Sheet and the need to perform a Dropped Fuel
               Analysis. In addition, a procedure for the unloading of a
               fuel cask was not developed.”

          We discussed this comment with an official in Savannah River’s
          Reactors and Spent Fuel Division who said that the “deficiency”
          principally pertained to delays in being able to properly receive
          “on-site” shipping casks used to transfer spent nuclear fuel
          between Savannah River facilities. This official said that
          Westinghouse had performed its dry-run assessments based
          upon a different “off-site” shipping cask. He said that, while L-
          Basin had not been ready for the “on-site” cask, the approval by
          Westinghouse and Savannah River was essentially validated by
          L-Basin successfully receiving spent fuel from an “off-site” cask
          on January 30, 1997.

          In a draft of this report we had concluded that the $380,000
          incentive fee paid for PBI 96-11-2 should be recovered. We had
          based this on the language of the PBI, which did not specify
          receiving fuel from “offsite” versus “onsite” locations. The PBI’s
          performance criteria simply stated “Demonstrate L-Reactor
          readiness for research reactor fuel storage by… .successfully
          unloading two casks by 9/1/96 for $380,000.” We believed that
          the language of the PBI should have been the determining
          factor.




Page 14                                                   Details of Finding
          In commenting on the draft report, however, the Acting Manager,
          Savannah River wrote that the language of this PBI was
          imprecise. He also discussed the key issue of whether PBI
          96-11-2 was intended to prepare the L-Basin for receipt of fuel
          from both onsite and offsite locations, or just from offsite
          locations. He stated that the PBI was only intended to address
          the receipt of fuel from “offsite”, and not “onsite” which utilized a
          differently configured shipping cask. He said that this was
          evidenced by the use of an “offsite” cask in the exercises
          conducted to validate L-Basin’s preparedness. He wrote that the
          Award Fee Board Report addressed a deficiency involving an
          “onsite” shipment, and therefore did not pertain to PBI 96-11-2.
          He also wrote that both DOE-Savannah River and the contractor
          clearly understood the scope of work to be associated with
          receipt of spent nuclear fuel originating from offsite facilities. He
          wrote that:

               “Based upon the consistency of the information… , and most
               importantly based upon the written and verbal assurances
               of DOE-SR staff members that the intent of this PBI was to
               prepare L-Basin for receipt of offsite casks, I have
               determined that the contractor satisfied the intent of PBI 96-
               11-2 and was properly paid the $380,000 provided for in
               the PBI.”

          We concluded, therefore, that there was no basis for recovering
          PBI fees in this case because DOE Savannah River had
          provided written and verbal assurances that the intent of this PBI
          was to prepare the L-Basin for receipt of offsite casks. The
          Acting Manager, Savannah River wrote that the PBI language in
          this case was not precise, and has acknowledged in response to
          Recommendation 1 that clarity of PBI requirements is
          recognized as an area of improvement. Therefore, no additional
          recommendation is required.




Page 15                                                     Details of Finding
3. New Sources of Funding   PBI 96-14 entitled “Achieve Recognition of Technical Capability
   Were Double-Counted      to Enhance DOE Special Missions, “ and PBI 96-15 entitled
   Towards Two PBIs         “Additional Sources of Funding for SRTC [Savannah River
                            Technology Center]” both had the objective of achieving
                            additional sources of funding for their respective incentive
                            program. In both PBIs, Westinghouse could earn an incentive
                            fee by obtaining additional funding from other DOE sources and
                            for PBI 96-15, non-DOE sources.

                            We noted in our inspection that three items of new funding
                            totaling $3,280,000 were counted towards achieving both PBI
                            96-14 and PBI 96-15. These three items were:

                                  $2,580,000 for Accelerator Production of Tritium
                                     500,000 for Plutonium Conversion
                                     200,000 for Spent Nuclear Fuel
                                  $3,280,000 Total

                            We were told by both Savannah River and Westinghouse
                            officials that Westinghouse could designate funding meeting
                            the objectives of both PBI 96-14 and PBI 96-15 to the PBI of
                            its choice, but that the funding could not be double counted
                            towards achieving both PBIs. We were also told that in the
                            event of a double counting situation, Westinghouse could
                            apply the funding to whichever PBI would provide them with
                            the most incentive fee.

                            We discussed the double counting of the above three items
                            with a Westinghouse official. This official indicated that if
                            double counting had occurred in achieving both PBI 96-14
                            and PBI 96-15, Westinghouse would request that the
                            required adjustment be taken against PBI 96-14, since this
                            would result in the least financial impact. We were informed
                            by Savannah River officials that this issue had been referred
                            to the Savannah River Chief Counsel for review.




Page 16                                                                     Details of Finding
Recommendation       We recommend that the Manager, Savannah River
                     Operations Office:

                     Recommendation 2: Review for recovery incentive fees paid
                     to Westinghouse as a result of new funding being double
                     counted towards achieving both PBI 96-14 and PBI 96-15.

Management Comment   The Acting Manager, Savannah River agreed that new
                     funding was inappropriately counted towards the
                     achievement of both PBI 96-14 and PBI 96-15. He stated
                     that they have already modified the existing Award Fee Plan
                     policy to prohibit such occurrences in the future, and that
                     Savannah River has recovered $67,860 in incentive fees
                     from Westinghouse.

Inspector Comment    We consider management’s statements regarding
                     Recommendation 2 to be responsive.




Page 17                                               Recommendation and Comment
Appendix

Scope         The inspection was performed at the Savannah River Operations
              Office in Aiken, South Carolina, from March through December
              1997.

Methodology   To accomplish the inspection objective, we:

                    • Evaluated the available guidance for establishment
                      and implementation of the Performance Based
                      Incentive Program at the Savannah River Operations
                      Office.

                    • Evaluated the goals established for specific
                      Performance Based Incentive projects and the
                      analysis performed by the Savannah River Operations
                      Office to justify specific Performance Based Incentive
                      award amounts.

                    • Evaluated whether the stated objectives of selected
                      Performance Based Incentives were achieved.

              The inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency. As part of our inspection, we
              interviewed Savannah River Operations Office and
              Westinghouse officials. Our inspection also included a detailed
              review of the files of the Award Fee Coordinator, the Contracting
              Officers, and the Program Managers for 19 of the 39
              Performance Based Incentives established in Fiscal Year 1996.




Page 18                                                Scope and Methodology
                                                                                     IG Report No. INS-0-98-03

                                      CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We wish to
make our reports as responsive as possible to our customers' requirements, and, therefore, ask that you consider
sharing your thoughts with us. On the back of this form, you may suggest improvements to enhance the effective-
ness of future reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the audit
   would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this report
   to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more clear to
   the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this report
   which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions about
your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-0948, or
you may mail it to:

                                       Office of Inspector General (IG-1)
                                             Department of Energy
                                            Washington, DC 20585

                                           ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General, please
contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
effective as possible. Therefore, this report will be available electronically through the Internet at the fol-
                                         lowing alternative address:


                 Department of Energy Human Resources and Administration Home Page
                                       http://www.hr.doe.gov/ig

                     Your comments would be appreciated and can be provided on the
                            Customer Response Form attached to the report.

                                    This report can be obtained from the
                                         U.S. Department of Energy
                               Office of Scientific and Technical Information
                                                 P.O. Box 62
                                       Oak Ridge, Tennessee 37831
